HHS/OIG-Audit--"Operation Restore Trust Audit of Presbyterian Hospital Skilled Nursing Facility, Dallas, Texas, (A-04-96-01149)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Audit of Presbyterian Hospital Skilled Nursing Facility, Dallas, Texas," (A-04-96-01149)
April 22, 1997
Complete
Text of Report is available in PDF format (846 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from January 1995 through March 1996.
The Operation Restore Trust reviewers questioned $198,663 of the $1,006,495 in charges for 40 beneficiaries in our sample.
This amount is comprised of $100,549 for unallowable services, $51,802 for services which were not reasonable or medically
necessary and $46,312 for services for which the skilled nursing facility (SNF) could not produce adequate supporting documentation.
Therefore, we are recommending an adjustment of the above charges. In addition, we request that a detailed review of all
rehabilitative therapies and physician orders for these therapies be conducted by the fiscal intermediary and State agency
in order to recoup overpayments made to the SNF and to implement corrective action by the facility.